September 2009
Report No. EVAL-09-007


Evaluation of the FDIC’s Solicitation and Award
of the National Owned Real Estate Management
and Marketing Services Receivership Basic
Ordering Agreement




      This is a redacted version of a
  previously issued report. The original
     version of this report contained
      sensitive procurement-related
                information.
                                                                                                         Executive Summary
                                                                                                     Report No. EVAL-09-007
                                                                                                             September 2009


                                             Evaluation of the FDIC’s Solicitation and Award of the National
                                             Owned Real Estate Management and Marketing Services
                                             Receivership Basic Ordering Agreement

                                             Results of Evaluation

Background and Purpose                       The FDIC followed its established acquisition procedures to achieve reasonable
of Evaluation                                competition and to avoid unmitigated conflicts of interest. Based on our review of
                                             file documentation and e-mail activity and interviews with FDIC officials, we
In November 2008, the FDIC awarded           identified no indications of improper contact or influence associated with this
the National Owned Real Estate               procurement action. The Corporation also took steps contemplated in the FDIC’s
Management and Marketing Services            Acquisition Policy Manual (APM) to reach a best value decision, such as
Receivership Basic Ordering                  establishing technical criteria, convening a technical evaluation panel (TEP), and
Agreement (ORE RBOA) to two asset
                                             documenting the TEP’s review of technical proposals. However, the FDIC could
management companies (C.B. Richard
                                             have benefited from developing overall or unit cost estimates against which it
Ellis (CBRE) and Prescient, Inc.) to
                                             could evaluate proposed rates, and better documented a competitive price range
assist the FDIC in the acquisition,
research, preparations for management,       and efforts to assess price reasonableness.
marketing, and final disposition of all
types of real property. Recent news          CBRE rates for certain key tasks were generally within, but were near the high
articles have discussed alleged              end of, the range of offeror rates that the FDIC received under this solicitation. As
conflicts of interest between the FDIC       a result, the overall estimated cost of the CBRE contract is substantially higher
and one of the asset management              than the cost of the Prescient contract. Contract file documentation stated that the
companies and suggested that the             FDIC’s rationale for selecting CBRE was CBRE’s exceptional technical
FDIC awarded the contract to this firm       capability, ability to manage complex commercial assets, and ability to market
at compensation rates higher than the        FDIC assets to a broad pool of global buyers. However, we found limited
industry norms. Although the FDIC            documentation (such as a comparison to market rates or an FDIC cost estimate) to
maintains that these allegations are         support the FDIC’s assessment of the reasonableness of CBRE rates for certain
unfounded, as a precaution, the FDIC         key areas, in particular, monthly asset management fees.
Chairman asked our office to
independently evaluate the process           The FDIC also made mathematical errors in calculating best and final offer pricing
leading to the award of the subject          amounts. In this regard, we found that the rates in CBRE’s executed contract were
agreement.                                   about 13 percent higher than the rates used to justify the FDIC’s best value
                                             decision in selecting CBRE as one of the winning bidders. Notwithstanding, the
The overall objective of our review          FDIC maintained that CBRE still represented the best value for the FDIC.
was to ensure that the FDIC followed
its established policies in soliciting and
                                             We also identified several procedural and documentation exceptions associated
awarding the ORE RBOA.
Specifically, we evaluated whether the
                                             with this procurement warranting management’s attention.
FDIC:
                                             By way of explanation, DOA officials indicated that at the time of the ORE
• Implemented controls designed to           RBOA solicitation effort, the FDIC experienced an unexpected surge in field
  achieve reasonable competition in          contracting activity in response to multiple bank failures. Further, the FDIC’s
  the solicitation,                          Dallas Office, which managed the solicitation, had only two employees to address
• Carried out a solicitation and             the additional workload. Since that time, the DOA has hired six new employees in
  evaluation process that included           Dallas to handle the extra workload.
  controls to avoid entering into a
  contract with an organization that         Based on the limited scope of our review, we are not making recommendations to
  presents an unmitigated conflict of        address our findings. Management should, however, take steps to obtain the
  interest, and                              various documents that are required, by policy, to be maintained to ensure there is
• Selected contractors on the basis of       a complete record of the ORE RBOA procurement. Further, in light of the
  the best value to the Corporation.         significant volume of contracting activity that the Corporation faces, management
                                             should ensure that personnel involved in procurement actions remain mindful of
To view the full report, go to               the risk associated with not properly documenting the actions taken to follow key
www.fdicig.gov/2009reports.asp               contracting principles—particularly with respect to documenting best value
                                             decisions.
                                TABLE OF CONTENTS

EVALUATION OBJECTIVE AND APPROACH                                           1

BACKGROUND                                                                  2

EVALUATION RESULTS                                                          3
   Controls to Achieve Reasonable Competition                               3
   Controls to Prevent Entering into Contracts with Organizations with      4
   Unmitigated Conflicts of Interest
   Controls to Ensure that Contractors Selected are the Best Value to the   5
   Corporation

CONCLUSIONS AND OTHER PROCEDURAL MATTERS                                    10

APPENDIX: Objective, Scope, and Methodology                                 12

TABLES
   Table 1: Technical Evaluation Criteria Used in the FDIC’s Best Value     6
   Decision
   Table 2: Offeror Technical Score and Price Information                   7
   Table 3: Comparison of Selected Contract Rates                           9
                    ACRONYMS IN THE REPORT

AP         Acquisition Plan
ASB        Acquisition Services Branch
APM        Acquisition Policy Manual
BAFO       Best and Final Offer
CBRE       C.B. Richard Ellis
CEFile     Contract Electronic File
CLU        Contract Law Unit
DOA        Division of Administration
DRR        Division of Resolutions and Receiverships
FDIC       Federal Deposit Insurance Corporation
OIG        Office of Inspector General
ORE        Owned Real Estate
ORE RBOA   National Owned Real Estate Management and Marketing Services
           Receivership Basic Ordering Agreement
RAC        Receivership Assistance Contract
RFP        Request for Proposal
SRR        Selection Recommendation Report
TEP        Technical Evaluation Panel
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General




DATE:                                     September 1, 2009

MEMORANDUM TO:                            Sheila C. Bair
                                          Chairman


                                          [Signed]
FROM:                                     Jon T. Rymer
                                          Inspector General

SUBJECT:                                  Evaluation of the FDIC’s Solicitation and Award of the National
                                          Owned Real Estate Management and Marketing Services
                                          Receivership Basic Ordering Agreement
                                          (Report No. EVAL-09-007)

We have completed a review of the subject procurement. In November 2008, the FDIC awarded
the National Owned Real Estate Management and Marketing Services Receivership Basic
Ordering Agreement (ORE RBOA) to two asset management companies to assist the FDIC in
the acquisition, research, preparations for management, marketing, and final disposition of all
types of real property. News articles discussed alleged conflicts of interest between the FDIC
and one of the asset management companies and suggested that the FDIC awarded the contract
to this firm at compensation rates higher than industry norms. Although FDIC management
maintains that these allegations are unfounded, as a precaution, you asked our office to
independently evaluate the process leading to the award of the subject agreement.


EVALUATION OBJECTIVE AND APPROACH

The overall objective of our review was to ensure that the FDIC followed its established policies
in soliciting and awarding the ORE RBOA. Specifically, we evaluated whether the FDIC:

     •    Implemented controls designed to achieve reasonable competition in the solicitation,
     •    Carried out a solicitation and evaluation process that included controls to avoid entering
          into a contract with an organization that presents an unmitigated conflict of interest, and
     •    Selected contractors on the basis of the best value to the Corporation.

To accomplish our objective, we identified and reviewed relevant policies and procedures,
interviewed FDIC officials associated with the procurement, and reviewed relevant
documentation maintained in contracting files and provided to us during our evaluation. Details
on our objective, scope, and methodology are provided in the Appendix.




                                                           1
BACKGROUND

The FDIC acquires owned real estate (ORE) through financial institution closings or by
discovery. 1 Property types include, but are not limited to, commercial improved properties that
are income producing such as retail shopping centers, hotels, resorts, and apartments. In
addition, the FDIC acquires land developments, farm land, improved residential properties,
condominiums, and vacant land and lots. Prior to the RBOA awards, Division of Resolutions
and Receiverships (DRR) staff in the Dallas Regional Office managed these properties.

In order to leverage DRR staff, DRR requested the Division of Administration (DOA) to solicit
contract services to expose ORE properties to the broadest market possible and to dispose of the
properties at the highest possible return within a reasonable period of time. In May 2008, DOA
began procurement efforts and in November 2008 signed ORE RBOAs with C.B. Richard Ellis
(CBRE) and Prescient, Inc. The contracts have an initial term of 3 years and may be extended at
the sole discretion of the FDIC, for up to three 2-year option periods. FDIC cost scenarios for
the two awardees estimated total contract costs of **************************, respectively.

The Federal Deposit Insurance Act (12 U.S.C. 1819(a)) empowers the FDIC to enter into binding
agreements and contracts. The Act also permits the FDIC to develop a procurement program to
acquire goods and services. The FDIC Board of Directors delegated authority to establish
policies and procedures for the procurement program to the Director, DOA. DOA’s Acquisition
Services Branch (ASB) is responsible for overseeing the implementation of the procurement
program throughout the FDIC, except for Legal Division procurements.

The FDIC Acquisition Policy Manual (APM), Circular 3700.16, establishes policies and
procedures for (a) procuring goods and services on behalf of the Corporation in its corporate,
receivership, and conservatorship capacities; and (b) identifying roles and responsibilities for all
FDIC employees involved in the pre-solicitation, solicitation, proposal evaluation, award, and
contract administration phases of the procurement process. The FDIC substantially revised the
APM in August 2008. 2

For the ORE RBOA, the initial solicitation and acquisition planning was performed under a prior
version of the APM, Revision 3, dated May 31, 2004, which had also been supplemented by a
number of interim acquisition policy memoranda. Of significance to this review, the policies set
forth in the current APM require the FDIC to:

    (1)    Establish reasonable competition as the preferred method of source selection;
    (2)    Enable innovative and creative tailoring of procurement processes to meet individual
           requirements, so that the right contractor is selected for each requirement; and
    (3)    Select contractors on the basis of the best value to the FDIC. 3
1
  The FDIC acquires ORE by discovery when research of a failed institution's records identifies additional assets that
were not included in the receivership’s balance sheet when the receivership was established.
2
  The August 2008 version of the APM is the FDIC’s official policy document for the acquisition of goods and
services, and is supplemented by a Procedures, Guidance, and Information document.
3
  When using the best value methodology, the Contracting Officer evaluates all offerors' quotes, integrating past
performance, key evaluation factors and sub-factors and price, to determine which quotation represents the best
value to the FDIC.




                                                          2
According to DOA officials, at the time of the ORE RBOA solicitation effort, the FDIC
experienced an unexpected surge in field contracting activity in response to multiple bank
failures. Further, its Dallas Office, which managed the solicitation, had only two employees to
address the additional workload. Since that time, the DOA has hired six new employees in
Dallas to handle the extra workload.


EVALUATION RESULTS

Controls to Achieve Reasonable Competition

Establishing reasonable competition as the preferred method of source selection is one of the key
principles set forth in the APM. The APM states that contracting officers and program offices
must use competition in acquisitions to the maximum extent possible. Through competition, the
FDIC is able to compare the value of competing technical proposals and prices in order to
determine which proposal affords the best value. Reasonable competition also means soliciting a
sufficient number of sources to obtain an adequate market response so that an analysis of the
fairness and reasonableness of individual offers can be performed. The FDIC’s Interim
Acquisition Policy # 2004-9, Implementing Acquisition Planning, established the Acquisition
Plan as the principal written document used to support the acquisition process and stated that the
Acquisition Plan should clearly demonstrate, among other elements, that goals for competition
and utilization of minority and small disadvantaged businesses are supported.

The FDIC took the following steps to generate reasonable competition.

   •   In February 2008, the FDIC conducted market research in the form of a Notice of
       Sources Sought published in FedBizOpps, the Wall Street Journal, and The New York
       Times. This market research was used to partially develop the sources for solicitation list,
       as well as sources suggested by the Program Office (DRR), the Contracting Officer, and
       the Office of Diversity and Economic Opportunity.
   •   The FDIC sent solicitations to 33 firms, which included five Minority and Women
       Owned Businesses.
   •   The FDIC received 18 proposals in response to the Request for Proposal (RFP) on
       July 17, 2008.
   •   The technical evaluation panel (TEP) evaluated proposals based on a 2-step technical
       approach utilizing a technical point scoring methodology and asked eight firms to make
       oral presentations.
   •   The FDIC reviewed offeror price proposals to establish price competition and price
       reasonableness. We discuss price evaluation later in this report.
   •   After evaluating the top eight firms’ technical and price proposals, the FDIC requested
       Best and Final Offers (BAFOs) from these firms and awarded contracts to two firms—
       CBRE and Prescient.




                                                3
Controls to Prevent Entering into Contracts with Organizations with Unmitigated
Conflicts of Interest

Federal Regulations at 12 C.F.R. Part 366 establish minimum standards of integrity and fitness
for FDIC contractors, including regulations governing conflicts of interest. The FDIC’s APM
Revision 3, Section 1.B.5.a., provides procedures for ensuring that contractors meet minimum
standards of competence, experience, integrity, and fitness. The Contracting Officer must ensure
that all offerors submit completed FDIC Integrity and Fitness Representations and Certifications
in proposals for services estimated to cost greater than $25,000.

The certification requires the contractor to answer conflict of interest questions related to
personal, business, or financial interests; litigation against the FDIC; FDIC asset sales; and
participation in future contracts for which the contractor may have an unfair competitive
advantage.

12 CFR Part 366, also states that no person will perform services under an FDIC contract, and no
contractor will enter into any contract with the FDIC if that person:

   1. Has been convicted of a felony;
   2. Has been removed from, or prohibited from participating in the affairs of, any insured
      depository institution pursuant to any final enforcement action by the Office of the
      Comptroller of the Currency, the Office of Thrift Supervision, the Board of Governors of
      the Federal Reserve System, or the FDIC, or their successors;
   3. Has demonstrated a pattern or practice of defalcation regarding obligations; or
   4. Has caused a substantial loss to any federal deposit insurance fund.

The FDIC complied with controls to prevent entering into contracts with organizations with
unmitigated conflicts of interest. Specifically, the FDIC

   •   Checked selected bidders against the “debarred list” of contractors to ensure that certain
       firms that are prevented from entering into contracts with the FDIC are not awarded
       contracts and
   •   Obtained FDIC Integrity and Fitness Representations and Certifications for all of the
       bidders as part of the RFP.

We obtained and reviewed CBRE’s and Prescient’s FDIC Fitness and Integrity Representations
and Certifications associated with the ORE RBOA and verified that both firms reported that they
did not have any conflicts of interest and had not caused a substantial loss to the Deposit
Insurance Fund.

Finally, we requested a listing of all e-mail activity between the FDIC and the CBRE Internet
domains during the time period May 15, 2008 thorough December 16, 2008, and we selected a
sample of e-mails for detailed review. We identified no indications of improper contact or
influence. We also verified with ASB officials involved in the solicitation that they were not
subject to undue influence from senior FDIC officials to award the RBOA to CBRE.




                                                 4
Controls to Ensure that Contractors Selected are the Best Value to the Corporation

During the ORE RBOA solicitation and evaluation period, DOA was transitioning from its
existing APM Revision 3, dated May 31, 2004, to a revised APM issued in August 2008. ASB
had also supplemented its 2004 procedures with a number of interim acquisition policy
memoranda. We verified with an ASB official that contract solicitations that were in process
during the transition to the new APM were expected to follow the existing APM through contract
award. Thus, DOA’s solicitation and evaluation process should have been carried out in
accordance with the existing APM Revision 3 procedures and applicable interim acquisition
policy memoranda. Still, given the evolving nature of the guidance, we considered both the old
and new APM guidance in conducting our review.

The old and new APM guidance provided DOA flexibility in selecting a methodology for
evaluating technical and cost factors in arriving at a best value decision. Traditionally, the FDIC
considered a combination of technical, price, and other factors in making a best value decision
and generally assigned a greater weight to technical factors. 4 Interim acquisition policy
memoranda also allowed for best-value assessment approaches based on:

    •   Technical Weighting or “Points System”: Points are assigned for specific technical
        criteria but not for past performance or price.
    •   Price/Past Performance Trade-Off: Proposals are evaluated against minimum technical
        requirements and graded either “pass” or “fail.” Proposals that “pass” are then evaluated
        for Past Performance and Price.
    •   “Color-Coded” Approach: Color ratings that represent how well an offeror meets
        technical performance or capability requirements are coupled with a confidence rating for
        past performance, and a determination of reasonableness, realism, and completeness for
        price. 5

The August 2008 APM notes that the use of color coding is the primary best value approach used
by the FDIC; however, the APM notes that other descriptive methods such as technical points
may also be used.

The FDIC’s Evaluation Methodology

The FDIC used a combination of best value methodologies in its evaluation of offers. In both the
acquisition plan and the RFP that was issued to prospective offerors, the FDIC stated the
following:

        In making the best value determination, the FDIC will consider the written information,
        oral presentation, price, and other factors identified in this RFP with technical factors

4
  For example, 60 percent technical scores to 40 percent price scores or 70 percent technical scores to 30 percent
price scores. DOA indicated that the FDIC and other agencies bound by the Federal Acquisition Regulations (FAR)
have moved away from establishing a specific technical-to-cost weighting in order to allow contracting officials to
use greater judgment in making a best value decision.
5
  The APM presents the following color ratings and associated definitions: Blue-Exceptional, Green-Acceptable,
Yellow-Marginal, and Red-Unacceptable.




                                                         5
       given greater weight than the evaluation of price. It shall be the FDIC’s sole discretion to
       determine which proposal represents the best value to the FDIC.

Similar language was included in the selection recommendation report (SRR), which documents
the basis for the FDIC’s best value and award decision.

The best value approach used for the ORE RBOA employed attributes of multiple best value
approaches described in the APM. The older version of the APM, section 1.A.5., APM
Deviations, stated that “Adherence to the APM promotes procedural consistency and protects the
integrity of FDIC's contracting process. When departures from APM requirements are necessary
or desirable, the Associate Director, ASB, may authorize waivers for the deviations.” Thus,
DOA did have the latitude to deviate from the APM. However, we did not see any waiver
authorizations for departures from the APM for the ORE RBOA solicitation. DOA officials
stated that the evaluation methodology departure was not significant enough to require a waiver.

Technical Evaluation

The APM requires the FDIC to establish evaluation factors to be used to evaluate offeror
proposals in the acquisition plan or source selection plan and to disclose those factors to potential
offerors in the RFP. The acquisition plan (AP), RFP, and SRR presented the following technical
evaluation criteria, as shown in Table 1.

Table 1: Technical Evaluation Criteria Used in the FDIC’s Best Value Decision
                                                                               Points
Technical Evaluation Criteria                                      AP           RFP         SRR
Written Information:
Demonstrate satisfactory past performance                           **           20           **
Qualified and appropriately organized contract team                 **           30           **
Oral Presentation:
Evidence of understanding technical requirements in the SOW         **           30           **
Provide satisfactory management plan for performance of tasks       **           30           **
Demonstrate adequate procedures for administration                  **           20           **
Total Points                                                       ***          130          ***
Source: AP, RFP, and SRR.

Although the evaluation factors were consistent between the AP, RFP, and SRR, the technical
point weightings differed between each document, as shown in Table 1. We did not perform
evaluation procedures to determine whether these changes had any impact on the TEP’s
assessment of written proposals or oral presentations. The points from the RFP indicated that the
written proposal would represent 38 percent of the overall technical score, while the SRR
indicated that the written proposal represented only ** percent in the FDIC’s evaluation of the
overall technical score. DOA officials stated that they recomputed the technical scores using the
points from the RFP and concluded that the technical evaluation results would not have been any
different.




                                                  6
Price Evaluation

As discussed above, the ORE RBOA RFP stated that price would be a factor in making a best
value decision, but indicated that technical factors would be given greater weight than the
evaluation of price in making the best value decision. Due to the inability to predict the exact
number of bank failures or assets that would be acquired by the FDIC that would require
contractor services, offerors’ proposed prices were evaluated against a scenario developed by the
FDIC that took into consideration a defined number of assets *******************
***********, an estimated length of time to sell the assets *********, and estimated quantities
for set-up fees and closing support. All offerors were therefore evaluated against the same
assumptions.

Table 2 presents technical score and price information (based on the ****** pricing scenario) for
each of the offerors.

Table 2: Offeror Technical Score and Price Information
Offeror                  Technical     Initial Price BAFO Price   Revised or
                         Score                       in SRR       Corrected Price
Offeror #1                     100.00%      100.00%       100.00%        100.00%(2)
(Winning Bidder)
Offeror #2                       77.55%          47.41%            71.22%             65.39%(3)
(Winning Bidder)
Offeror #3                       54.08%          51.08%            76.59%             68.41%(4)
Offeror #4                       53.06%          54.48%            89.11%
Offeror #5                       52.04%          35.54%            51.88%
Offeror #6                       47.96%          79.45%            84.56%
Offeror #7                       45.92%          32.79%            57.27%
Offeror #8                       42.86%          32.38%      Eliminated(1)
Source: OIG Analysis of SRR and DOA electronic spreadsheets.
Notes: (1) The offeror submitted incomplete pricing and was eliminated from consideration.
        (2) The price scenario supporting the SRR was apparently miscalculated. DOA provided a price
        scenario schedule (created on 12/16/08) that agreed with the executed contract rates. This revised
        scenario was $**** million, approximately 13 percent higher than the SRR amount.
        (3) DOA provided a price scenario schedule (created on 10/31/08) showing a total of
        $**********. We identified several cells in the schedule that were populated with incorrect
        management fee rates, which increased the scenario price by $************ to $**********.
        (4) Scenario spreadsheets created by DOA on 10/21 and 10/31/08 show $**********.

We made the following observations related to the FDIC’s price analysis:

•   Prior to evaluating the price proposals, the FDIC did not develop an overall cost estimate or
    unit cost estimates for the functions to be performed under the contract. The APM does not
    require a contract ceiling for RBOAs because of the uncertainty surrounding bank failures
    and the level of assets in liquidation. Still, it may have been prudent for the FDIC to develop
    unit cost estimates for certain contract functions such as asset set-up fees, monthly asset
    management fees, and sales commission amounts.




                                                    7
•   DOA stated that it relied on the competition between the offerors’ price proposals to
    determine cost reasonableness. The APM notes that price competition normally ensures
    reasonable prices. However, in this case, the FDIC awarded the RBOA to the highest
    offeror, whose bid was over 50 percent higher than that of the other winning bidder and the
    average bid of other offerors. DOA noted that the winning bidder lowered its bid
    substantially (28%) during the BAFO process. As discussed later, the FDIC clearly stated in
    the SRR its rationale for paying more for CBRE’s asset management and marketing services
    than for Prescient’s services.

•   We verified that ASB did not establish a specific weighting of technical merit to price or
    document a competitive range for making the best value decision.

    o We acknowledge that the APM does not require ASB to define a specific
      technical-to-price weighting. DOA officials stated that the FDIC and other FAR-based
      agencies have moved away from establishing a specific technical-to-cost ratio. We also
      reviewed a solicitation request for proposal from a large FAR-based agency and verified
      that the agency used a tradeoff analysis of technical-to-cost similar to the ORE RBOA
      solicitation without a specific technical-to-cost weighting factor. The FAR-based agency
      also utilized an independent government cost estimate to assess price reasonableness.

    o With respect to establishing a competitive range, a DOA official stated that DOA
      evaluated the initial price bids that were submitted as a result of the RFP and identified a
      competitive price range for the contract. DOA then required that the BAFO bids fall
      within that competitive price range to be considered for contract award.6 DOA indicated
      that both of the winning bidders were within the competitive price range. However,
      because DOA did not document this range, we could not independently confirm DOA’s
      assertion. 7

    We understand the importance of contracting and program officials being able to exercise
    professional judgment in making a best value decision; however, without some quantifiable
    basis for assessing technical merit in relation to price or a documented competitive price
    range, it is difficult to objectively determine whether one offeror’s technical capability
    presents a better value than other offerors proposing more attractive pricing.

•   As discussed earlier, the initial evaluated price for CBRE that appeared in the SRR was
    apparently miscalculated. DOA provided a revised price scenario that was created
    subsequent to the SRR that was 13 percent higher and agreed with the executed contract
    rates. The SRR provided the justification for the FDIC’s integrated best value decision
    weighting the results of the technical and price evaluation. However, the revised price is
    approximately 13 percent higher than the SRR-based price. Lacking documentation

6
  Hypothetical Example: If five offerors submitted bids of $5 million, $25 million, $50 million, $75 million, and
$95 million, DOA may establish a reasonable range of $25 to $75 million. The BAFO bids would then need to be
within that range to be considered reasonable.
7
  We also noted that the price bids that were used to establish the competitive range were from firms that did not
meet the FDIC’s technical evaluation criteria, which could raise questions about the reliability of the competitive
price range.




                                                          8
          supporting what the Corporation considered to be a competitive price range or relative
          weighting of technical-to-price factors, we were unable to conclude whether the revised price
          scenario still fell within the parameters of a best value for the Corporation. DOA officials
          indicated that they had recalculated offerors’ technical and cost scores using the corrected
          scenario pricing and using a traditional 60 percent technical to 40 percent price ratio and
          determined that CBRE still would have won the contract given its superior technical ability.
          We did not attempt to verify this calculation.

      •   The pricing scenario used by ASB only covered a time period of *******. This RBOA is
          potentially a 9-year contract if all options are exercised. Thus, depending on failed asset
          activity, the almost $********** price difference between CBRE and Prescient could be far
          greater over the life of the contract.

      •   Contracting file documentation clearly stated the FDIC’s rationale for selecting CBRE due to
          the company’s exceptional technical capability, ability to manage complex commercial
          assets, and ability to market FDIC assets to a broad pool of global buyers. File
          documentation noted that CBRE’s proposal offered the most comprehensive technical
          approach of the offerors (**************************************************) and
          dedicated access to a large commercial real estate services firm, a network of clients on a
          nationwide basis, and a large residential real estate firm. However, DOA could have better
          documented its analysis of the reasonableness of contract rates for certain CBRE services.
          Table 3 presents selected contract rates for CBRE and Prescient.

      Table 3: Comparison of Selected Contract Rates
                                                                                                      Range of
                   (1)
Expense Category                                 CBRE                        Prescient               Unsuccessful
                                                                                                      Offerors(2)
Closing Support Labor Rate                    $250 per hour               $175 per hour              $75 to $266
Asset Set-up Fee
   • Residential                             $450 per asset             $150-200 per asset            $150-$2,228
   • Commercial                              $600 per asset            $350-$550 per asset            $150-$2,228
Monthly Asset Management Fee
   • Residential                             $500 per asset              $356.25 per asset            $0 to $552
   • Commercial                             $2,225 per asset             $712.50 per asset           $250 - $1,930
Sales Commission
    • Residential under $25K                  $5,000 per asset             $1,948 per asset           $2,000 - $3,200
    • Residential over $25K               6 percent of sales price           5.82 percent            4 – 8.95 percent
    • Commercial                          7 percent of sales price           5.82 percent
    • Incentive for selling in the        1.5 to 2 percent, $2,500       1.9 percent, $485 for
        first 6 months                     for residential < $25K         residential < $25K
      Source: CBRE and Prescient Contract Price Schedules.
      Notes: (1) Table 3 presents those contract rates that were used in the price evaluation pricing scenario.
               (2) These offerors failed the technical evaluation criteria and one offeror’s rates were
               substantially higher than others in certain categories.

          As shown, CBRE rates for certain tasks were generally within the range of offers received
          under the solicitation, but were near the high-end of that range. Regarding ASB’s efforts to



                                                            9
   determine price realism, contract file documentation stated the FDIC performed a price
   analysis by comparing the offeror’s proposed rates against each other and also against other
   sources. *******************************************************************
   **************************************************************************
   ********************************************************************. The
   FDIC was not able to identify a direct comparable source for the administrative management
   fees. File documentation acknowledged that CBRE’s rates were higher but that they were
   still recommended for award due to the superiority of their technical proposal considering
   their experience and approach.

   Although file documentation stated that the Contracting Officer performed a price analysis
   comparing hourly rates, administrative management fees, sales commissions, and incentive
   fees, these analyses were not made available to us for review. Consequently, we could not
   evaluate the documents supporting the selection of the winning offerors, especially CBRE,
   whose rates in certain expense categories were higher than most of the other offerors’ rates.
   DOA noted that CBRE’s rates were still generally within the range of the unsuccessful
   offerors.

   Moreover, although file documentation indicates that CBRE was selected, in part, based on
   its expertise with managing and disposing complex commercial properties, our understanding
   is that, in practice, the FDIC is assigning assets to CBRE and Prescient on a whole-
   receivership basis, not based on the complexity of the assets in the receiverships.


CONCLUSIONS AND OTHER PROCEDURAL MATTERS

The FDIC followed its established acquisition procedures to achieve reasonable competition and
avoid unmitigated conflicts of interest. The Corporation also took steps contemplated in the
APM to reach a best value decision, such as establishing technical criteria, convening a TEP, and
documenting the TEP’s review of technical proposals. However, the FDIC could have benefited
from developing overall or unit cost estimates against which it could evaluate proposed rates,
and better documented a competitive price range and efforts to assess price reasonableness.
DOA also made mathematical errors in calculating BAFO pricing amounts.

We also identified the following procedural and documentation exceptions associated with this
procurement that warrant management’s attention.

Contract File Documentation

As discussed throughout this report, contract file documentation for this procurement was
generally not adequate. Numerous contracting documents were not included in the Contract
Electronic File (CEFile), DOA’s contract documentation repository. In some cases, DOA was
able to provide source solicitation and evaluation documents that were not in CEFile, such as the
BAFO submissions and evaluations. In other cases, however, DOA was unsuccessful in locating
relevant documentation. The APM notes that the contract file should document the basis for the
acquisition and award and should provide a complete background as a basis for informed




                                               10
decisions at each step in the acquisition process. File documentation provides information for
reviews and investigations, and furnishing essential facts in the event of litigation or
congressional inquires. The documentation is also essential to the Contracting Officer in
efficiently and effectively administering the contract.

Approval of Acquisition Plan

The Acquisition Plan that was included in CEFile was undated and did not include signatures
indicating approval by the client division (DRR), the Office of Diversity and Economic
Opportunity, or the Legal Division.

Evaluation of Technical Proposal

As we stated earlier, the RFP provided for two steps in the technical phase: (1) written
information and (2) oral presentation. We found documentation related to the evaluation of the
written information, including the TEP memorandum and the Evaluation Sheets, in the official
contract file. However, we could not find the written proposal information submitted by the
unsuccessful offerors. With regard to step two, we found copies of the presentation materials in
the file, but could not find the Evaluation Sheets with narratives from the TEP members in the
contract file.

Based on the limited scope of our review, we are not making recommendations to address our
findings. Management should, however, take steps to obtain the various documents that are
required, by policy, to be maintained in the CEFile to ensure there is a complete record of the
ORE RBOA procurement. Further, in light of the significant volume of contracting activity that
the Corporation faces, management should ensure that personnel involved in procurement
actions remain mindful of the risk associated with not properly documenting the actions taken to
follow key contracting principles—particularly with respect to documenting best value
decisions.




                                               11
                                                                                     Appendix I


                      OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate whether the FDIC followed its established policy in soliciting and
awarding the National Owned Real Estate Management and Marketing Services Receivership
Basic Ordering Agreement.

To accomplish our objective, we

   •   Reviewed DOA’s Acquisition Policy Manual and related policy guidance to understand
       relevant criteria.

   •   Interviewed headquarters DOA and DRR officials associated with the solicitation and
       evaluation effort.

   •   Reviewed relevant solicitation and evaluation documents that were available in CEFile
       and other documents outside of CEFile that were provided to us by DOA officials.

Consistent with our objective, the scope of our evaluation was limited to assessing the extent to
which the FDIC complied with its established policies and procedures and documented efforts to
do so. We also verified the accuracy of cost scenario spreadsheets. We did not perform any
qualitative procedures to assess the technical qualifications of the offerors or the FDIC’s
technical evaluation of offeror proposals.

We performed our evaluation during May and June 2009, in accordance with the Quality
Standards for Inspections.




                                             12
